APPENDIX
TABLE OF CONTENTS

Final Order, by the
United States Court of Appeals
for the Seventh Circuit

Page
1

Order Denying
Petition for Rehearing en Banc, by the
United States Court of Appeals
for the Seventh Circuit

8

Response by Respondent to
Petitioner's Motion to Compel,
Section on claim of common interest

10

Response by Wife and Husband to
Petitioner's Motion to Compel,
Section on claim of common interest

13

Case: 20-2166 Document: 32 filed: 04/13/2021
---------------------------- Pages:-4---------------------------NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with Fed.R.App.P.
32.1
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted April 2, 2021*
Decided April 13, 2021
Before
DIANE S. SYKES, Chief Judge
MICHAEL S. KANNE, Circuit Judge
DIANE P. WOOD, Circuit Judge
No. 20-2166
WILLIAM HERMAN VIEHWEG Appeal from
U.S.D.C. for the
Central District of
Illinois
Plaintiff-Appellant,
v.
SIRIUS XM RADIO, INC.,
Defendant-Appellee

No. 17-3141
Richard Mills,
Judge.

Appendix Page -1 -

ORDER
William Herman Viehweg sued Sirius XM
Radio for defamation, claiming that during a phone
call it had falsely accused him of identity theft.
Because the transcript of the call showed that Sirius
had not defamed Viehweg, the district court entered
summary judgment for Sirius. On appeal, Viehweg
challenges that decision and some earlier orders. But
because no evidence supports a claim of defamation
and the district court did not commit reversible error
in its other ruling, we affirm.

*We have agreed to decide the case without oral
argument because the briefs and record adequately
present the facts and legal arguments, and oral
argument would not significantly aid the court. Fed.
R. App. P. 34(a)(2)(C).
This case arose after Viehweg renewed his
subscription for Sirius's satellite-radio service around
the same time that another customer with the same
first and last name, and a nearly identical
middlename, also did so. Viehweg has a distant
relative named William Harry Viehweg ("Bill"), and
Bill is married to Bridget Viehweg. Bill and Bridget
were already Sirius customers when they bought a
new car that came with a free Sirius subscription.
Sirius later called Bridget to see if she wanted to
continue the subscription for the new car at the end of
Appendix Page - 2 -

her free trial. She did, and Sirius then consolidated
-aH-tfaree-accounts.
or Bill that it had consolidated the three accounts into
one.
After the consolidation, Bridget and Viehweg
noticed problems with their service. They each saw
that an unknown car was connected to their accounts
and that information such as their phone numbers,
credit card numbers, and addresses was incorrect.
Over the course of three days, they separately tried to
correct these issues through customer service, but
without success. Instead, at times they both lost radio
service, and once Sirius charged Bridget for Viehweg's
subscription.
On the third day of these efforts, June 10, 2016,
Bridget called Sirius. She asked how another person
could be controlling her account. Based on the call's
transcript, Sirius explained that "William" (first name
only) could have altered the account by using various
available items of identification, such as an email,
address, account number, or car-radio identifier.
Bridget decided that "William" was an unknown
person who had wrongly obtained her address, creditcard number, and email. Sirius offered to investigate
and confirmed that she had the "option" of filing a
police report. Bridget and Bill later called the local
police to report identity fraud. The police eventually
contacted Viehweg and realized that the problem was
likely caused by Sirius having two nearly identically
named customers. The police arranged for Viehweg,
whom they never arrested or charged with a crime, to
Appendix Page - 3 -

contact Bridget.
--------- Bissatisfied—with—Sirius—Viehweg-sued—it—fordefamation, alleging that it told Bridget on June 10
that he had stolen her identity. Judge Sue E.
Myerscough initially presided, but she recused herself
without explanation, and Judge Richard Mills took
over. Sirius later moved for summary judgment, and
Viehweg filed a response, which Sirius moved to seal
because it included exhibits with trade secrets. Judge
Mills granted the motion but directed the clerk to seal
only the exhibits and any references to them. Because
of technical limits, the clerk sealed Viehweg's entire
filing. Viehweg then filed a series of motions. He
moved to unseal his response, to have Judge Mills
recused as biased against Viehweg, and to hold Sirius
in contempt. The contempt request itself asserted
several grounds: Sirius had not reimbursed Viehweg
for the cost of serving process; it had not preserved
and produced documents properly; it had wrongly
moved to seal his summary-judgment filing; and it
had interfered with his right to self-representation.
Judge Mills denied recusal, did not unseal the
response, summarily denied the request for contempt,
and entered summary judgment for Sirius.
On appeal, Viehweg first contests the recusal
decisions. He argues that Judge Myerscough had a
duty to remain on his case. But a plaintiff has no
entitlement to the continued exercise of jurisdiction
by a particular judge, so long as some judge hears his
case. Hampton v. City of Chicago, 643 F.2d 478, 47980 (7th Cir. 1981). Viehweg's case proceeded without

Appendix Page - 4 -

Judge Myerscough, so we do not disturb her recusal
s-that,
Judge Mills should have recused himself for actual or
apparent bias. See 28 U.S.C §455(a), (b)(1). To obtain
recusal, Viehweg had to show that a reasonable
observer would find Judge Mills was biased or partial.
See United States v. Barr, 960 F.3d 906, 920 (6th Cir.
2020); United States v. Simon, 937 F.3d 820, 826 (7th
Cir. 2019). Viehweg urges that Judge Mills's ruling
on summary judgment and on sealing his opposition
establish that Judge Mills was biased against him as
a pro se litigant. "But judicial rulings alone are
almost never a valid basis for a recusal" unless they
show an "extrajudicial" motivation for bias or
partiality. Barr, 960 F.3d at 920 (citing Liteky v.
United States, 510 U.S. 540, 555 (1994)). Judge Mills'
decisions cited legitimate reasons - the lack of
evidence and trade secrets - and did not refer to
irrelevant factors, such as Viehweg's status as a pro
se litigant.
Viehweg next challenges summary judgment
for Sirius on his defamation claims, but that ruling
was appropriate. Viehweg observes correctly that
false accusations of theft are defamatory per se. See
Knafel v. Chicago Sun-Times, Inc., 413 F.3d 637, 639
(7th Cir. 2005). But Viehweg has offered no evidence
to support his claim that Sirius accused him of theft
on June 10. The transcript of the call shows that
Sirius did not accuse Viehweg of identity theft (or any
crime). Rather, it suggested that "William" - it gave
no middle or last name - had used identifying
information available to him to alter the account.
When Bridget said that her husband did not make the
changes, Sirius did not respond that it was Viehweg,
let alone that he had stolen credentials to do so; it
Appendix Page - 5 -

merely offered to investigate the matter and said that
.llher-option."
Viehweg does not dispute that this transcript refutes
his claims. Instead, he insists that Sirius modified the
transcript, deleted an undisclosed and inculpatory
second call, told Bridget to call the police, and bribed
Bridget to he about it. But because Viehweg offered
no evidence supporting his speculations, summary
judgment was proper. See Waldon v Wal-Mart Stores,
Inc., 943 F.3d 818, 823 (7th Cir. 2019).
Viehweg also argues that the district court
should have Held Sirius in contempt, but the court
rightly denied that motion. To be held in civil
contempt, a person must have violated an
unambiguous court order. S.C.C. v. Hyatt, 621 F.3d
687, 692 (7th Cir. 2010). Viehweg first points to
Sirius's motion to seal its trade secrets and its request
that he use the court's electronic fifing system, which
he views as attempts to "oppress" his right to self­
representation. But these actions did not violate a
court order.
Next, Viehweg argues that Sirius
violated court orders that required it to refund
Viehweg for his costs in serving process and to
produce recordings without removing credit-card
data. But the court had already ruled that Sirius did
not violate these orders: Sirius sent Viehweg a check
for the service costs, and a third party, not Sirius, had
removed the credit-card data before Sirius acquired
the recording.
Because the court had already
addressed these issues, and Viehweg did not present
new evidence of noncompfiance, the court reasonably
denied his motion. See id.; Sigsworth v. City of
Aurora, 487 F.3d 506, 512 (7th Cir. 2007). Finally,
Viehweg contends that the district court needed to
sanction Sirius for lying and attempting to obstruct
Appendix Page - 6 -

justice.

But Viehweg provided no evidence of

-w»

nm thp

record, so the court reasonably did not impose
sanctions. See Evans v. Griffin, 932 F.3d 1043, 1047
(7th Cir. 2019).
We have considered
arguments, and none has merit.

Viehweg's

other

AFFIRMED

Appendix Page - 7 -

Case: 20-2166 Document: 37 Filed: 05/20/2021
-------------:------------ Pagest-L--------------------------United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
May 20, 2021
Before
DIANE S. SYKES, Chief Judge
MICHAEL S. KANNE, Circuit Judge
DIANE P. WOOD, Circuit Judge
No. 20-2166
WILLIAM HERMAN VIEHWEG Appeal from
U.S.D.C. for the
Central District of
Illinois
Plaintiff-Appellant,
v.

No. 17-3141

SIRIUS XM RADIO, INC.,
Defendant-Appellee

Richard Mills,
Judge.

ORDER
Plaintiff-Appellant filed a petition for
rehearing and rehearing en banc on May 5, 2021. No
Appendix Page - 8 -

judge in regular active service has requested a vote on
-theijetit-ion-for-^ehearing-era-fea^MTT-and-all-inember-s-ofthe original panel have voted to deny panel rehearing.
The petition for rehearing en banc is therefore

DENIED.

Appendix Page - 9 -

3:17-cv-03140-RM-TSH # 168

Page 1 of 21

E-FILED

Sunday, 22 March, 2020 04:35:54 PM
Clerk, U.S. District Court, ILCD

JKLTHEJJNITF.n STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF ILLINOIS
SPRINGFIELD DIVISION

WILLIAM HERMAN VIEHWEG,

)
)
)
)
)
)
)
)
)

Plaintiff,
v.
SIRIUS XM RADIO, INC.,
Defendant.

Case No. 17-3140

OPINION
RICHARD MILLS, United States District Judge:
Pending is the Defendant’s motion for summary judgment.
I.

INTRODUCTION

William Herman Viehweg (“the Plaintiff’ or “Viehweg”) filed this lawsuit on
June 12,2017. In his second amended complaint, the Plaintiff claims that Defendant
Sirius XM Radio (“the Defendant” or “Sirius”) accused him of having committed
identity theft, thereby defaming him.
The Defendant denies doing so and claims this lawsuit is the product of a
simple mix-up because the Plaintiff has the same first name, last name and middle
initial with another man who lives in a neighboring community and who also
subscribes to Sirius XM.

1

3:17-cv-03140-RM-TSH # 168

Page 2 of 21

The Plaintiff disputes the Defendant’s assertion, claiming that this lawsuit has ,
resulted from the Defendant’s fraudulent business practices which led to the
Defendant maliciously defaming the Plaintiff twice.
II.

FACTS

Background
The Plaintiff, who was 69-years old at the time the motion was filed, has never
been married and has no children. He has never had an internet account in his life,
nor an email address. He has not had an American Express credit card in the last 10
years. He never had Sirius XM service until he bought a 2016 Chevy Cruze from
the Roger Jennings Dealership in Hillsboro, Illinois, in October of 2015.
The sole issue in this case is whether Defendant Sirius XM accused Plaintiff
William Herman Viehweg of “identity theft” in a telephone call or calls on June 10,
2016. The Defendant claims that Plaintiff admitted at no point did a Sirius XM
representative accuse Plaintiff of “identity theft.” Viehweg claims he merely stated
that the recording and the transcript, as produced by the Defendant, did not contain
the words “identity theft.”
Sirius XM provides a satellite radio service in the United States that currently
broadcasts more than 150 channels of music, premier sports, news, talk,
entertainment, traffic and weather to more than 33 million subscribers. Radios
capable of receiving XM’s radio service are installed in a majority of new vehicles
2

3:17-cv-03140-RM-TSH # 168

Page 3 of 21

automotive manufacturers, most new vehicles include a trial subscription to the
Sirius SM satellite radio service. The length of trial subscriptions vary but typically
last at least 90 days.
The Plaintiff lives in Mount Olive, Illinois. In October 2015, the Plaintiff
purchased a 2016 Chevrolet Craze. The Plaintiff received a 90-day trial period of
Sirius XM radio. The Plaintiff did not sign any documents at the time relating to
Sirius’s service, but was assigned an account number for his 90-day trial
subscription. Sirius established the account holder’s name as William Viehweg.
Viehweg was happy with Sirius XM’s services and on December 28, 2015, decided
to renew and pay for a Sirius XM subscription after his trial period ended. The
Plaintiff claims Sirius’s agent verified seven identifiers by: asking the Plaintiff to
verify the radio ID, name, address, telephone number, noticing and confirming no
email address, and verifying the car type and service package. The Plaintiff used a
Visa credit card and paid for a five-month plan that would expire on June 8, 2016.
The Plaintiff has a distant relative named William Harry Viehweg (“Harry”),
who since at least August 2015 has lived with his wife Bridget and their child in
nearby East Alton, Illinois. The Plaintiff and the other Viehwegs live approximately
30 to 40 minutes away from each other. Harry lived in Mount Olive, where he
graduated from high school, approximately 15 years ago.
3

3:17-cv-03140-RM-TSH # 168

Page 4 of 21

Account mix-up
The other Viehwegs had been Sirius XM customers since December of 2012.
The account holder was William Viehweg. The Defendant claims that, on May 4,
2016, a call center representative from Sirius XM’s vendor, JNet Communications
LLC (d/b/a Servicom), called Bridget Viehweg to renew the other Viehwegs’ Sirius
XM subscription on a 2015 Ford Edge vehicle after the free trial ended. The other
Viehwegs had leased the vehicle in April 2016, upon trading in their Ford Fusion.
The Plaintiff alleges there is no evidence to support the allegation that the May 4th
telephone call was from Servicom. The Defendant asserts that, during the phone
call, the agent incorrectly consolidated Bridget and Harry Viehweg’s Sirius XM
account with the Plaintiffs Sirius XM account. The Plaintiff claims that his account,
ending in 0948, was consolidated with not one, but two other accounts, ending in
4478 and 0306. The Plaintiff alleges Sirius XM’s attempt to verify the address
established two addresses: Mallard Drive on the Ford Edge account and Airwood
Drive on the Ford Fusion “existing account.” When Sirius attempted to verify the
Cmze Limited (Plaintiffs account), Bridget responded negatively with “Nope, I’ve
never had a Craze.” The other Viehwegs’ six-month plan would begin when their
trial period ended. Neither party mentioned nor requested consolidating accounts.

On April 22, 2016, Bridget telephoned Sirius XM and canceled the subscription on their Ford Fusion.

4

3:17-cv-03140-RM-TSH # 168

Page 5 of 21

:Fhe42-la-i-Httf^a-l^o-al-leges4haVat-the-time-Qf-th£4)iione-call.,JBxidgg.t_w:as.not_a
customer of Sirius after having sold her Ford Fusion a few weeks earlier. The
account was under Harry’s name.
The Defendant’s vendor’s representative mistakenly consolidated the
Plaintiffs account with the other Viehwegs’ accounts and Sirius XM emailed a
confirmation of that consolidation to Bridget Viehweg. Beginning on May 4, 2016
and continuing into June 2016, the account mix-up caused inadvertent service
interruptions and account information errors for both the Plaintiff and the other
Viehwegs. The Plaintiff disputes the terms “mix-up,

59 (.(.

inadvertent” and “errors.”

On June 8, 2016, at 12:44 a.m., Sirius XM automatically renewed the
Plaintiffs subscription on his Cruze and billed the other Viehwegs’ credit card
$54.64, without their authorization. Sirius subsequently charged another credit card
of the other Viehwegs $58.12, without their permission. Apparently, this charge was
from a Ford Edge that Plaintiff had rented some time ago. The other Viehwegs were
understandably frustrated. In a June 9,2016 phone call, Bridget Viehweg expressed
concern that someone had access to her Sirius XM username, password, credit card
and other information and she wanted the problem straightened out.
June 10. 2016 phone call
The Defendant claims its business records show that there was only one phone
call between Sirius XM’s vendors and Bridget on the day of the alleged defamation,
5

3:17-cv-03140-RM-TSH # 168

Page 6 of 21

June 10,2016. Bridget confirmed this at her deposition. The Plaintiff disputes these
assertions and alleges there was a second telephone call between the Defendant and
the Viehwegs on June 10, 2016. The Defendant alleges Bridget called Sirius XM
because services in her Ford Edge were shut off again. The Plaintiff alleges Bridget
called Sirius XM because, after thinking matters had been resolved while at lunch
with her family, she reached the conclusion that Plaintiff had gotten into their
account and changed everything again. At the outset of the phone call, Bridget
advised, “I have someone who keeps connecting their vehicle to our account. . . .
And I need to talk to somebody in upper management because this is going to get
elevated because I am ready to call the police station.” She claimed that Sirius XM
was “letting people fraudulently register their vehicles on [her] account.” Bridget
threatened to “cancel all services,” stating “this is beyond ridiculous.”

She

mentioned her plan to file a police report at several points in that call.
The Defendant alleges that in response to Bridget’s questions about whether
another user accessed her account, the representative kept trying to identify and
address the problem throughout the call.

The Plaintiff disputes that the

representative was trying to identify and address the problem. Bridget assumed that
the third party accessing her account had her email and telephone number (if not
other information). The Plaintiff disputes the assertion, claiming Bridget did not
“assume” but had contacted Sirius to investigate the matter. He alleges she phoned
6

3:17-cv-03140-RM-TSH # 168

Page 7 of 21

telephone number to access the account and the Sirius representative confirmed it,
saying “Correct.” The representative explained that the only way someone could
make changes is after verifying the name, address and radio ID. When Bridget
pressed the representative to say how someone may have changed the account
information, the representative said, “I can go ahead and have that escalated but I
don’t have any records of the call ma’am so as much as I would like to rely on your
conversation that was made earlier I don’t have any records as of today. Alright,
usually the process it’s going to take 7-10 business days to be resolved.” Sirius
XM’s fraud policy instructs representatives to “ask specific questions to determine
if this is truly fraud or a billing issue.”
Bridget believed Sirius XM had a Privacy Act issue and decided to make a
police report. Sirius XM advised that all calls are recorded and Bridget could call
back for further assistance.
The Plaintiff claims that Sirius twice falsely states that he had to have the radio
ID on the other Viehwegs’ Ford Edge in order to cancel it. Moreover, he alleges
Sirius falsely states that Plaintiff had to have the other Viehwegs’ email address.
Additionally, Sirius falsely states it did not provide the Plaintiff with access to the
other Viehwegs’ account. The Plaintiff further asserts that Sirius XM, knowing that
Plaintiff did not commit fraud or identity theft, convinces Bridget that he did and
7

3:17-cv-03140-RM-TSH # 168

Page 8 of 21

that she should file a police report and that, consistent with its policy on fraud, Sirius
offers its assistance.
The Defendant notes that the transcript of the call and call recording have been
submitted in conjunction with its motion and, further, those documents speak for
themselves and the Plaintiff misrepresents those communications. The Defendant
also states it did not know the exact nature of the problem, the source of the problem
or other necessary information at the time of the call. Moreover, the allegations are
not material to the only legal issue before the Court: whether Sirius XM accused
Plaintiff of “identity theft.”
The Defendant claims the Plaintiff listened to the call recording and reviewed
a transcript and acknowledged that the Sirius XM representative did not accuse him
of “identity theft.” The Plaintiff disputes the allegation, claiming that the recording
and the transcript as produced by Sirius did not contain the words “identity theft.”
Bridget testified at her deposition that she believed Sirius XM did not know
what happened. Both Bridget and Sirius XM were trying to determine the root of
the problem. Bridget took Sirius XM’s statements in that call as guesses or opinions,
not statements of fact, because “nobody really knew what was happening.” The
Plaintiff disputes that Bridget believed these statements at the time of the telephone
conversation on June 10, 2016.

8

3:17-cv-03140-RM-TSH # 168

Page 9 of 21

on June 10,
2016, Bridget was not sure “how the confusion was taking place” and she wanted
law enforcement to intervene and “get some resolution.” The Plaintiff disputes the
assertion, claiming that at the end of the phone call, Bridget was convinced that
Plaintiff had committed identity theft and was determined to have him arrested. The
other Viehwegs contacted the Mount Olive Police Department. The Mount Olive
Police Department referred them to the East Alton Police Department.
Later in the afternoon, the other Viehwegs called the Madison County
Sheriffs Office. The Plaintiff claims the other Viehwegs reported him for identity
theft. The Defendant was not a party to that call.
A sheriffs deputy met with the other Viehwegs. The deputy determined an
account mix-up occurred with someone with the same name as her husband and the
Plaintiff was not at fault. The Plaintiff alleges he contacted the Madison County
i

Sheriffs Department and spoke with Deputy Cole who informed him that a
complaint of identity theft had been made against the Plaintiff. After questioning
the Plaintiff, Deputy Cole stated that it was probably an administrative problem at
Sirius Radio. The Plaintiff was not arrested, charged, indicted or convicted of any
criminal offense. Sirius XM was not a party to these communications.
Later that afternoon, Deputies Cole and Schellhardt arrived at the other
Viehwegs’ home in East Alton and advised Bridget this was probably an
9

3:17-cv-03140-RM-TSH # 168

Page 10 of 21

administrative problem with Sirius XM. The Madison County Sheriffs Department
creates an Incident Report.
The Plaintiff alleges that, upon obtaining his permission, the Madison County
Sheriffs Department gave his phone number to Bridget. The Plaintiff informed her
that he has a Sirius account and has been having similar problems. Bridget states
that she is going to demand lifetime service from Sirius. Bridget gave the Plaintiff
her telephone number. The conversation was short and businesslike. The Defendant
was not a party to the communications.
The Plaintiff alleges Bridget made a second phone call to Sirius XM. Bridget
had made no changes to the account in her previous telephone call with Sirius’s
supervisor. The Plaintiff asserts that, at some point after Bridget spoke with the
Madison County Deputies, substantial changes were made to the account. The
Defendant claims that the subsequent transactions shown in the account notes for
June 10, 2016 were made online by Bridget Viehweg.
On June 11, 2016, the Plaintiff telephoned Sirius XM because his radio has
no service. The Plaintiff stated, “Listen, this other customer with my name, you’re
getting the two accounts mixed up. The other customer assumed somebody was
trying to steal their identity, so made a phone call to the police, which ended up
contacting me saying I was stealing their identity.” The Plaintiff claims Sirius
denied him access to the account because the account holder’s name has been
10

3:17-cv-03140-RM-TSH # 168

Page 11 of 21

these facts are irrelevant to the sole allegation in this case, whether Sirius XM
accused Plaintiff of “identity theft” on June 10, 2016. Moreover, the transcript
speaks for itself.
Damages
The Plaintiffs alleged damages include reputational harm, emotional distress
and embarrassment. The Plaintiff seeks an amount greater than $85,000. The
Plaintiff explained that his damages included Sirius XM’s alleged “refusal to correct
the matter and unconsolidated the accounts, unconsolidated the mixture of private
data, and to admit that they consolidated, and basically let Bridget Viehweg know
that, and me.”
Except for the Plaintiffs discussions with a friend, no one in his community
discussed the alleged defamation with him.

The Defendant alleges that Plaintiff

admits he will not have members of his community testify regarding his reputation
in the community and any alleged injury thereto.

The Plaintiff disputes the

allegation, claiming he will have Bridget and her husband testify regarding damages
to the Plaintiffs reputation. Moreover, the Plaintiff states he will also have Sirius
agents testify regarding damages to his reputation. Regarding his reputation in the
community, the Plaintiff said “there is not much of one.” The Plaintiff further
explained that, prior to this litigation, he had several disputes with the City of Mount
11

3:17-cv-03140-RM-TSH # 168

Page 12 of 21

Olive and “there is no goodwill” and the Mayor and the Police Department were not
friendly towards him.
The Plaintiff is retired, he is not seeking employment and he has not sought
employment since the above incident. Regarding emotional distress, the Plaintiff
says that hearing Deputy Schellhardt say “identity theft” caused him emotional
distress.

However, that statement was from a deputy sheriff, not Sirius XM.

Additionally, Deputy Schellhardt testified that he advised the Plaintiff and the other
Viehwegs that no crime occurred, that there was an account mix-up and that it was
a civil matter. The Plaintiff has not sought any medical or psychiatric treatment or
counseling in connection with any of the alleged conduct in this case.
Post-filing of lawsuit
Soon after this lawsuit, the Plaintiff received in the mail a notice
congratulating him on his purchase of a new 2017 Ford F-150 with a Sirius trial
subscription. The notice had the Plaintiffs name and address and included the
account number and the radio id. The Plaintiff has never owned a pick-up truck.
Bridget’s husband, William Viehweg, had purchased a Ford F-150 on June 30,2017.
The Plaintiff states that Sirius XM officials had communications with him and
the other Viehwegs after this lawsuit was filed. He contends that when a Sirius XM
representative spoke to Bridget Viehweg, Sirius did not inform Bridget Viehweg that
Plaintiffs address, which was still linked to her husband’s new Ford F-150, will now
12

3:17-cv-03140-RM-TSH #168

Page 13 of 21

provided Bridget with a personal email, $364.49 in refunds, and one year’s free
service on their Ford Edge ($226.81 value) and Ford F-150 ($226.81 value). The
Defendant notes these allegations regarding events that occurred after the lawsuit
was filed are irrelevant to whether it accused the Plaintiff of identity theft on June
10, 2016.
III.

DISCUSSION

Standard of review
Summary judgment is appropriate if the motion is properly supported and
“there is no genuine dispute as to any material fact and the movant is entitled to
judgment as a matter of law.” See Fed. R. Civ. P. 56(a). The Court construes all
reasonable inferences in favor of the non-movant. See Siliven v. Indiana Dept, of
Child Services, 635 F.3d 921, 925 (7th Cir. 2011). To create a genuine factual
dispute, however, any such inference must be based on something more than
“speculation or conjecture.” See Harper v. C.R. England, Inc., 687 F.3d 297, 306
(7th Cir. 2012) (citation omitted).

Because summary judgment “is the put up or

shut up moment in a lawsuit,” a “hunch” about the opposing party’s motives is not
enough to withstand a properly supported motion. See Springer v. Durflinger, 518
F.3d 479, 484 (7th Cir. 2008). Ultimately, there must be enough evidence in favor
of the non-movant to permit a jury to return a verdict in its favor. See id.
13

3:17-cv-03140-RM-TSH # 168

Page 14 of 21

B. Defamation
(1)
The Plaintiff contends the Defendant accused him of a crime in a telephone
call on June 10, 2016, by convincing Bridget Viehweg “to report the Plaintiff to the
police for identity theft,” thereby defaming him. “To state a defamation claim, a
plaintiff must present facts showing that the defendant made a false statement about
the plaintiff, the defendant made an unprivileged publication of that statement to a
third party, and that this publication caused damages.”

Solaia Tech., LLC v.

Specialty Pub. Co., 221 I11.2d 558, 579 (2006). “A statement is defamatory per se
if its harm is obvious and apparent on its face.” Id. A statement is considered
defamatory per se if it consists of “words that impute a person has committed a
crime.” Id. at 580.
The Defendant claims the Parties agree that Sirius XM did not accuse the
Plaintiff of a crime. There was only one call on June 10, 2016 so Plaintiffs second
count of defamation fails. Moreover, the Defendant asserts it did not make a false
statement about the Plaintiff in the June 10 phone call with Bridget Viehweg so the
Plaintiffs first defamation count fails. Additionally, Sirius XM’s communications
with customers are privileged.
The Defendant also claims its statements were not defamatory per se and that
Plaintiff lacks damages.
14

3:17-cv-03140-RM-TSH # 168

Page 15 of 21

&■

The Court has carefully reviewed the transcript of the June 10, 2016 phone
call between Bridget Viehweg and Tracy, one of the Sirius XM supervisors.2 There
are several instances in which Bridget says she’s going to file a police report. At
one point, she asks Tracy whether she should call and file a police report and Tracy
responded, “Well, it’s your option ma’am but again I can go ahead and have this on
resolved or if you can provide me the radio ID number so I can. . .” After stating
she had done that before, Bridget said “we’re not going to update the address on
there until I get a police report because it doesn’t sound like you guys are going to
do anything for me.” When Tracy noted that Sirius XM does not make changes to
an account without receiving certain information, Bridget said “He is, he’s making
changes with my personal information and I don’t even know the man. I don’t think
you understand it. It’s not ... he does, he does not have my permission and he’s
using...” When Tracy asked for the username in order to log in to see the account,
Bridget refused to give that information because of what she believed had already
happened and she was afraid Sirius XM would give that information out to someone
else.
Bridget eventually provided Tracy with her email address which she uses to
log in to her account. Bridget inquired as to whether the person logging in to the

2 The transcript is attached as Exhibit 6 to the Defendant’s motion for summary judgment [d/e 116].

15

3:17-cv-03140-RM-TSH #168

Page 16 of 21

account has to have her email address and telephone number and Tracy responded,
“Correct.” Tracy later says that Sirius verifies the account with three pieces of
information, such as the name, address and radio ID number. Bridget continues to
express her frustration, stating “I don’t know what the solution is but I, this guy has
got my information he’s got my charge card number, my email address, everything
out there.” When Tracey informed Bridget that the only information the Defendant
had was the information on the account, Bridget said “Then he has to have our
information. I get what you are saying about changing our information, but I don’t
know if that is going to solve my problem or not. If he has he’s got access to the
account, then it does not solve my problem. I don’t think you understand.” After
Tracy offered a month’s free service of Sirius XM Bridget stated, “Do you
understand that this guy has gotten into our information because you guys have
allowed him to?”
Bridget then asked, “In order for him to cancel the service on the Ford Edge
he had to have had that number, correct?” Bridget responded, “Exactly, yes ma’am.
We are getting that information also. . .” Bridget then inquired, “Okay, he was . . .
gave you that information to cancel that account in order to put the new car on it?
Right?” Tracy responded, “Correct.” Bridget then said: “Okay, sorry my next step
is going to the police department then because obviously he has got our information.
Because there is no reason he should have our radio ID on our car. Is that what you
16

3:17-cv-03140-RM-TSH # 168

Page 17 of 21

knowing the ID of the one he had to cancel. Correct?” Tracy responded, “Alright,
I am just checking on the history so bear with me. Okay?” Bridget stated, “I mean
you guys have to have notes on what he did.” Tracy replied, “Okay, again ma’am
we don’t have any ways of figuring out if that was William that called but that’s the
information he gave us.” After more discussion Bridget said, “Okay, I’m going to
go ahead and make a police report and if they need to get ahold of you they will be
calling you guys cuz I’m not getting.. . it’s not you . . . but I am not getting a good
feeling about this and I take this guy having my information very seriously, that’s
why I’m very aggravated.”
Tracy responded, “Alright I completely understand. So in addition, before I
go ahead and for that notation that we discussed on the account, what do you want
me to do with the service because as of right now there is an active account.” Bridget
told her to “[ljeave it open for right now and I’ll be calling to shut it down in jut a
little while but I need it active so the police report can be made so please do not shut
it off.” Tracy then advises that Bridget will be receiving an email confirmation.
There is more discussion regarding whether her email address was provided by the
other individual when changes were made. Bridget said, “Well he made changes
this morning he verified my email address.” Tracy responded, “We are the ones
that’s reading the emails. If he confirmed that it’s the email address, that’s the one
17

3:17-cv-Q3140-RM-TSH # 168

Page 18 of 21

that will be sent the confirmation.” Bridget replied, “Okay that’s what I needed to
know. I am going to make a phone call and then you guys will hear back from us in
a little while.” Subsequently, Bridget directed no changes on the account and said
“[tjhere’s going to be a police report. Because if you guys had him confirm the
email address he fraudulently knew that wasn’t his. So that, that’s what I’m trying
to get to the bottom of.”
The transcript shows that Sirius XM did not accuse Plaintiff William H.
Viehweg of identity theft. Bridget believed that Plaintiff had accessed she and her
husband’s account and made changes because Sirius XM could not identify the
problem.

There are two individuals named William H. Viehweg, who live in

neighboring communities in southern Illinois.3

At some point, a Sirius XM

representative consolidated the accounts of the two men. As a result, the Plaintiffs
account number was associated with Bridget’s email address.
On a number of occasions during the phone call, Bridget said that she was
, going to the police because she believed that the William H. Viehweg who is not her
husband had access to their account.

During the phone call, the Sirius XM

representative never advises her to contact the police. At all times, Tracy appears to

3 The Plaintiff states that the two Viehwegs had nothing in common except their first and last name. They
also have the same middle initial and also live in nearby Illinois communities. Presumably, the Plaintiff
is attempting to suggest that they could not possibly be confused with one another because of their
differences. Of course, the Sirius XM representative who consolidated the accounts was not examining
their backgrounds or personal histories when he or she made the error.

18

3:17-cv-03140-RM-TSH # 168

Page 19 of 21

from Sirius XM

-be-t-ry-ing—tQ-soiv-e-tho-prj

essentially are talking in circles because neither party realizes that the accounts were
consolidated.
To the extent that Plaintiff contends that by stating or suggesting that he had
access to the other Viehwegs’ email address, phone number and radio ID the Sirius
XM representative had accused him of a crime, the Plaintiff is incorrect. That is not
an accusation of a crime and not defamatory per se.

Additionally, when the

transcript is read in context, it is apparent that the Sirius XM representative is making
general statements about how changes are made to one’s account while at the time
neither party realizes the accounts were mistakenly consolidated.

She is not

accusing the Plaintiff of stealing this information or committing any criminal act.
The only information in the record shows that there was one phone call on
June 10, 2016. Bridget testified that she made only the one phone call to Sirius XM
on that date. The Declaration of Tiffany Haggerty, the Manager, Customer Service
Management, at Sirius XM Radio, “Sirius XM and its telemarketing vendors have
identified all relevant call recordings associated with the accounts of Plaintiff and
William Harry Viehweg and his wife, Bridget Viehweg. These business records
show that there was only one phone call between a Sirius XM representative and
William Harry Viehweg and/or Bridget Viehweg.” Although the business records

19

3:17-cv-03140-RM-TSH #168 Page 20 of 21

are somewhat difficult to interpret, there is no indication that a second phone call
was made and, certainly, no basis to believe that Plaintiff was accused of a crime.
Bridget Viehweg perhaps implied that she or her husband would call Sirius
XM again after she contacted the police.4 She stated, “I am going to make a phone
call and then you guys will hear back from us in a little while.” It appears she may
instead have decided to make the changes online. The Plaintiffs speculation there
was another phone call is not enough to create a genuine issue of material fact.
The Plaintiff offers nothing but speculation and conspiracy theories in support
of his claim that Sirius XM accused him of identity theft. It is obvious that this was
an innocent mistake that was frustrating both to the Plaintiff and the other Viehwegs.
There simply is no evidence that Plaintiff was accused of identity theft or any other
crime. There is no indication that Sirius XM had any sort of vendetta against him.
The police almost immediately determined that the mix-up was due to an
administrative error.
Even upon construing all reasonable inferences in the Plaintiffs favor,
therefore, the Court concludes he is unable to meet any of the elements in support of
a defamation claim. Clearly, there is no evidence the Defendant made a false
statement about him. Accordingly, there was no publication of a false statement to
a third party which resulted in damages.

4 Significantly, Sirius XM did not advise or instruct her to contact the police.
20

3:17-cv-03140-RM-TSH # 168

Page 21 of 21

i

The Defendant is entitled to summary judgment

The remaining motions will be denied.
Ergo, the motion of Sirius XM Radio, Inc. for summary judgment as to all
claims [d/e 116] is GRANTED.
The Defendant’s Motion for Sanctions [d/e 152] is DENIED.
The Plaintiffs Motion for Order to Show Cause [d/e 155] is DENIED.
The Plaintiffs Motion to Strike the Defendant’s Response to Plaintiffs
Motion to Show Cause [d/e 163] is DENIED.
The Clerk will enter Judgment in favor of the Defendant and against the
Plaintiff and close this case.
ENTER: March 20, 2020
FOR THE COURT:
/s/ Richard Mills
Richard Mills
United States District Judge
(

/

21

